IN THE SUPREME COURT OF THE UNITED STATES
Petitioner, Khai Quang Bui
v.
Respondent, Abdul Alshaer

ON PETITION FOR WRIT OF CERITORARI
TO THE SUPREME COURT OF VIRGINIA

APPENDIX
PETITION FOR WRIT OF CERTIORARI

Khai Quang Bui
1124 Duchess dr Mclean, VA 22102
Email: akhaibui@vahoo.com
Number: 571-389-0693

TABLE OF CONTENTS
,11-V

1.

Table of Contents

I.

Supreme Court of Virginia Khai Quang Bui v. Abdul Alshaer record
No.200989 Circuit Court No.CL2019-14766 February 5, 2021 order
1,6

II.

Supreme Court of Virginia Khai Quang Bui v. Abdul Alshaer record
No.200989 Circuit Court No.CL2019-14766 December 8, 2020 order
1,7

III.

Fairfax County Circuit Court Khai Bui v. Abdul Alshaer CL2019-14766
1,8

January 31, 2020 order
IV.

Fairfax County Circuit Court CL2019-14766 Khai Bui v. Abdul Alshaer
1,8

proceeding (5)
V.

Fairfax County Circuit Court Khai Bui v. Abdul Alshaer CL2019-14766
Transcript

of

hearing

transcribed

order

on

[page

13-14]
1, 9-23

VI.

Fairfax County Circuit Court Khai Bui v. Abdul Alshaer CL2017-16518
2,24

April 6, 2018 order
VII.

Fairfax County Circuit Court Khai Bui v. Abdul Alshaer CL2017-16518
2,25-30

proceeding (13)
VIII.

Fairfax County Circuit Court Khai Bui v. Abdul Alshaer CL2017-16518

A

proceeding (17)

n

2,24

f

IX.

Fairfax County Circuit Court Khai Bui v. Abdul Alshaer CL2017-16518
complaint “civil libel defamation tort” file February 12, 2018
2,31-34

X.

Fairfax County Circuit Court Khai Bui v. Abdul Alshaer CL2017-16518
proceeding (12)

XI.

2,31-34

Fairfax County Circuit Court Khai Bui v. Abdul Alshaer CL2019-14766
complaint

“Malicious

prosecution”

filed

October

29,

2019
2, 35-42

XII.

Fairfax County Circuit Court Khai Bui v. Abdul Alshaer CL2019-14766
proceeding (1)

XIII.

2-3,35-42

Fairfax County Circuit Court Khai Bui v. Abdul Alshaer CL2019-14766
“response

to

plea

in

bar”

filed

January

23,

2020

3, 43-47
XIV.

Fairfax County Circuit Court Khai Bui v. Abdul Alshaer CL2019-14766
proceeding (4)

XV.

3, 43-47

Fairfax County Circuit Court Khai Bui v. Abdul Alshaer CL2019-14766
plea

in

bar

without

exhibit

filed

November

21,

2019
3,48-54

XVI.

Fairfax County Circuit Court Khai Bui v. Abdul Alshaer CL2019-14766
proceeding (3)

3,48-54

in

XVII.

Supreme Court of Virginia Khai Quang Bui v. Abdul Alshaer record
No.200989 Circuit Court No.CL2019-14766 February 5, 2021 order
3,6

XVIII.

Supreme Court of Virginia Khai Quang Bui v. Abdul Alshaer record
No.200989 Circuit Court No.CL2019-14766 proceeding (1)

XIX.

Supreme Court of Virginia Khai Quang Bui v. Abdul Alshaer record
No.200989 Circuit Court No.CL2019-14766 proceeding (3)

XX.

4

4

Supreme Court of Virginia Khai Quang Bui v. Abdul Alshaer record
No.200989 Circuit Court No.CL2019-14766 petition rehearing appendix
4,55-56

C p. 46
General Rules of Pleading, 28a U.S.C. Rule 8 (c) (1) (2010)

4

Determination, 28 U.S.C. § 2106 (1948)

4

XXIII.

State courts; certiorari, 28 U.S.C. § 1257 (a) (1988)

4

XXIV.

Writs, 28 U.S.C. § 1651 (1948)

4

State laws as rules of decision, 28 U.S.C. § 1652 (1948)

4

Va. Code § 8.01-249.3

4

Va. Code § 8.01-45

4

Va. Code § 19.2-265.6

4

Supreme Court of Virginia rule 1:6

4

XXI.
XXII.

XXV.
XXVI.
XXVII.
XXVIII.
XXIX.
XXX.

County of Fairfax Virginia police report (can only be retrieve through
4-5,55-56

court process)

IV

XXXI.

Fairfax County Circuit Court Khai Bui v. Abdul Alshaer CL20195

14766 Table of Contents

v

I.

Supreme Court of Virginia Khai Quang Bui v. Abdul Alshaer record
No.200989 Circuit Court No.CL2019-14766 February 5, 2021 order,
SCV case management system: ACMS - Home (state.va.us) record no.
200989.

II.

Supreme Court of Virginia Khai Quang Bui v. Abdul Alshaer record
No.200989 Circuit Court No.CL2019-14766 December 8, 2020 order,
SCV case management system: ACMS - Home (state.va.us) record no.
200989.

III.

Fairfax County Circuit Court CL2019-14766 Khai Bui v. Abdul Alshaer
January 31, 2020 order, SCV case management system: ACMS - Home
(state.va.us) record no. 200989 Fairfax County Circuit Court CL201914766.

IV.

Fairfax County Circuit Court CL2019-14766 Khai Bui v. Abdul Alshaer
proceeding (5), Table of Contents page 71, SCV case management
system: ACMS - Home (state.va.us) record no. 200989 Fairfax County
Circuit Court CL2019-14766.

V.

Fairfax County Circuit Court Khai Bui v. Abdul Alshaer CL2019-14766
Transcript of hearing transcribed order on [page 13-14], SCV case
management system: ACMS - Home (state.va.us) record no. 200989,
petition August 6, 2020 appendix B.

1

VI.

Fairfax County Circuit Court CL2017-16518 Khai Bui v. Abdul
Alshaer April 6, 2018 order, volume record of Fairfax County Circuit
Court CL2017-16518 Khai Bui v. Abdul Alshaer.

VII.

Fairfax County Circuit Court Khai Bui v. Abdul Alshaer CL201716518 proceeding (13), volume record of Fairfax County Circuit Court
CL2017-16518 Khai Bui v. Abdul Alshaer.

VIII.

Fairfax County Circuit Court Khai Bui v. Abdul Alshaer CL201716518 proceeding (17), volume record of Fairfax County Circuit Court
CL2017-16518 Khai Bui v. Abdul Alshaer.

IX.

Fairfax County Circuit Court CL2017-16518 complaint “civil libel
defamation tort” file February 12, 2018, volume record of Fairfax
County Circuit Court CL2017-16518 Khai Bui v. Abdul Alshaer.

X.

Fairfax County Circuit Court Khai Bui v. Abdul Alshaer CL201716518 proceeding (12), volume record of Fairfax County Circuit Court
CL2017-16518 Khai Bui v. Abdul Alshaer.

XI.

Fairfax County Circuit Court CL2019-14766 Khai Bui v. Abdul Alshaer
complaint “Malicious prosecution” filed October 29, 2019, SCV case
management system: ACMS - Home (state.va.us) record no. 200989
Fairfax County Circuit Court CL2019-14766.

XII.

Fairfax County Circuit Court Khai Bui v. Abdul Alshaer CL2019-14766
proceeding (1), Table of Contents page 1-14, SCV case management

2

system: ACMS - Home (state.va.us) record no. 200989 Fairfax County
Circuit Court CL2019-14766.
XIII.

Fairfax County Circuit Court CL2019-14766 Khai Bui v. Abdul Alshaer
“response to plea in bar” filed January 23, 2020, SCV case management
system: ACMS - Home (state.va.us) record no. 200989 Fairfax County
Circuit Court CL2019-14766.

XIV.

Fairfax County Circuit Court Khai Bui v. Abdul Alshaer CL201914766 proceeding (4), Table of Contents page 53-70, SCV case
management system: ACMS - Home (state.va.us) record no. 200989
Fairfax County Circuit Court CL2019-14766.

XV.

Fairfax County Circuit Court CL2019-14766 Khai Bui v. Abdul Alshaer
plea in bar filed November 21, 2019, SCV case management system:
ACMS - Home (state.va.us) record no. 200989 Fairfax County Circuit
Court CL2019-14766 Khai Bui v. Abdul Alshaer.
(

XVI.

SFairfax County Circuit Court Khai Bui v. Abdul Alshaer CL201914766 proceeding (3), Table of Contents page 16-51, SCV case
management system: ACMS - Home (state.va.us) record no. 200989
Fairfax County Circuit Court CL2019-14766.

XVII.

Supreme Court of Virginia Khai Quang Bui v. Abdul Alshaer record
No.200989 Fairfax County Circuit Court No.CL2019-14766 February 5,
2021, SCV case management system: ACMS - Home (state.va.us) record
no. 200989.

3

XVIII.

Supreme Court of Virginia Khai Quang Bui v. Abdul Alshaer record
No.200989 Circuit Court No.CL2019-14766 proceeding (1), SCV case
management system: ACMS - Home (state.va.us) record no. 200989.

XIX.

Supreme Court of Virginia Khai Quang Bui v. Abdul Alshaer record
No.200989 Circuit Court No.CL2019-14766 proceeding (3), SCV case
management system: ACMS - Home (state.va.us) record no. 200989.

XX.

Supreme Court of Virginia Khai Quang Bui v. Abdul Alshaer record
No.200989 Circuit Court No.CL2019-14766 petition rehearing appendix
C p. 46, SCV case management system: ACMS - Home (state.va.us)
record no. 200989.

XXI.
XXII.

General Rules of Pleading, 28a U.S.C. Rule 8 (c) (1) (2010).
Determination, 28 U.S.C. § 2106 (1948).

XXIII.

State courts; certiorari, 28 U.S.C. § 1257 (a) (1988)^

XXIV.

Writs, 28 U.S.C. § 1651 (1948).

XXV.
XXVI.
XXVII.
XXVIII.
XXIX.
XXX.

State laws as rules of decision, 28 U.S.C. § 1652 (1948).
Va. Code § 8.01-249.3.
Va. Code § 8.01-45.
Va. Code § 19.2-265.6.
Supreme Court of Virginia rule 1:6.
County of Fairfax Virginia police report (can only be retrieve through
court process), SCV case management system: ACMS

4

Home

(state.va.us) record no. 200989, petition rehearing December 22, 2020
appendix C p. 46.
XXXI.

Fairfax County Circuit Court CL2019-14766 Khai Bui v. Abdul Alshaer
Table of Contents, ACMS - Home (state.va.us) record no. 200989 Fairfax
County Circuit Court CL2019-14766.

5

VTROTNTA;
In the Supreme Court of Virginia held at the Supreme Court
Building in the City of Richmond on Friday the 5th day of February,
2021.
Khai Quang Bui,
against

Appellant,

Record No. 200989
Circuit Court No. CL-2019-14766

Abdul Alshaer,

Appellee.

Upon a Petition for Rehearing
On consideration of the petition of the appellant to set aside the judgment
rendered herein on December 8, 2020 and grant a rehearing thereof, the prayer of
the said petition is denied.

A Copy,
Teste:
Douglas B. Robelen, Clerk
By:

' s/
Deputy Clerk

6

VT ROTNT A:
In the Supreme Court of Virginia held at the Supreme Court
Building in the City of Richmond on Friday the 8th day of December,
2020.
Appellant,

Khai Quang Bui,
against

Record No. 200989
Circuit Court No. CL-2019-14766
Appellee.

Abdul Alshaer,

From the Circuit Court of Fairfax County
Upon review of record in this case and consideration of the argument
submitted in support of the granting of an appeal, the Court is of the opinion there
is no reversable error in the judgment complained of. Accordingly, the Court refuses
the petition for appeal.
A Copy,
Teste:
Douglas B. Robelen, Clerk
By:

s/
Deputy Clerk

7

VIRGINIA:
IN THE CIRCUIT COURT OF FAIRFAX COUNTY
KHAIBUI,
Plaintiff,
V.
ABDUL ALSHAER,
Defendant.

)
)
)
)

CL 2019-14766

)
)
)
)
)

ORDER
THIS MATTER came to be heard on Defendant’s Plea in Bar, and
IT APPEARING THAT Plaintiffs claims is barred by res judicata, it
Is hereby ADJUDGED, ORDERED and DECREED that the plea in bar
is sustained and case is dismissed with prejudice. Plaintiff io further
ordered to pay oanctiono in the amount of $—;

•— to Defendant for

htrjn{ring-thin action. The request for sanction is denied.
ENTERED this 31 day of January, 2020
BRETT A. KASSABIAN
si

JUDGE
SEEN AND object

SEEN AND AGREED:

si

s/

Khai Bui, pro se

Sefton Smyth (VSB#68669)

8
8

1
VIRGINIA
IN THE CIRCUIT COURT OF FAIRFAX COUNTY
X

KHAIBUI,
Plaintiff,
CASE NO.: CL-2019-0014766 :

v.
ABDUL ALSHAER,
Defendant.

x

Circuit Courtroom 5A Fairfax
County Courthouse Fairfax,
Virginia
Friday, January 21, 2020
The above-entitled matter came on to be heard before the
HONORABLE BRETT A. KASSABIAN, Judge, in and for the Circuit Court
of Fairfax County, in the Courthouse, Fairfax, Virginia, beginning at 10:23
o'clock a.m.
APPEARANCES:
On Behalf of the Plaintiff:
(Pro se.)
On Behalf of the Defendant:
SEFTON K. SMYTH, ESQUIRE
****

9

★

2

PROCEEDINGS

/

1

THE COURT: Bui versus Alshaer.

2

MR. SMYTH:

3

4

Sefton

Smyth here on behalf of the Defendant.
THE COURT: Good morning.

5
6

Good morning, Your Honor.

It’s good to see

you.

7

MR. SMYTH:

This is here on my plea in bar.

8

THE COURT:

Yes.

9

MR. SMYTH:

This is Mr. Bui’s third case that

10

he has filed in connection with a civil charge from back

11

in 2017.

12

of everything that he had filed.

13

everything.

And in my motion I outlined the entire timeline
And I attached copies of

I know that in this particular instance he seems to be

14
15

trying to focus on the statements that are made to the police officers, But

16

his case is for malicious prosecution. And there was only one criminal

17

prosecution.

18
19
20

21

And the statements that were in the criminal complaint
which were the subject of the first action before Judge Bellows - the case
which he dismissed with prejudice - obviously, those statements which
were sworn out before the magistrate for the summons to be - a

22
23

10

3
1

criminal summons to be issued, those were part of the prosecution.

2

And Judge Bellows dismissed that case with prejudice

3

already. So there’s already been a final order that was decided on the

4

merits.

5

And under rule 1:6 any additional claims in connection with

6

that same transaction or occurrence -- the criminal case -- had to have been

7

brought in the initial case.

8
9
10

THE COURT: I understand.

11

MR. SMYTH: I know Mr. Bui in his - his motion - he was

12

citing an exception in a Rule 1:6 about separate claims to be brought for

13

personal injuries and property damage, but his case is not a personal injury

14

case.

15

He had told me via email that he was going to cite two other

16

cases - Kellogg versus Green and D’Ambrosio versus Wolf, which I do have

17

copies of if Your Honor would like.

18

But the - in the Kellogg case the only issue before the

19

Supreme Court was whether or not a rule to show cause that was issued

20

and dismissed after a final decree of divorce had been entered -- the

21

question for the Court

22
23
11

4
1

was whether or not that was a final order.

2

THE COURT: I don’t need to --

3

MR. SMYTH: We have a-

4

THE COURT: -- see that case.

5

I recall that

case.

6

MR. SMYTH: -- we have a final order here.

7

The other case that he said he was going to rely on was

8

D’Ambrosio versus Wolf, which was actually a Judge Tran

9

matter.
And the question there was whether or not a suit to contest

10
11

the will was barred by res judicata when there had been a previous suit

12

about the testator’s mental capacity while she was alive.
And the Supreme Court there said, “Well, you can’t contest

13
14

the will until after the testator is dead.” And this particular case a claim for

15

malicious prosecution accrued once the criminal case was nollied back in

16

2017.

17

And his -- actually, in the federal case, which was dismissed

18

for lack of subject matter jurisdiction, he brought a malicious prosecution

19

there. So he knew about that just four months later.

20

The other thing though is that to the extent

21

that he’s claiming defamation for the criminal charges, as

22
23

12

5
1

I said, those would be barred by the one-year statute of limitation for

2

defamation, even allowing for all the tolling.

3

This case was filed one year to the day after

4

the federal case. And there’s time in between there.

5
6

So I’m asking for this case to be dismissed. And I am asking
for sanctions since this is his third case about this matter.

7
8

9
10

THE COURT: Okay.
Do you have the second case you referenced? The second

11

case you referenced that he emailed you? I don’t need to see the first

12

because I’m familiar with it.

13
14
15
16
17

MR. SMYTH: I have D’Ambrosio versus Wolf
here, Your Honor.
THE COURT: Mr. Bui - thank you very much. Mr. Bui,
do you wish to rely on this case - this - I’m sorry. I’m sure you can’t see.
Do you wish to rely in part on D’Ambrosio versus Wolf?

18
19
20

21
22
23

MR. BUI:

I do, Your Honor.

THE
COURT:

Okay.

Why - MR.
BUI:

I would like to —
13

6

2

don’t you go ahead and go to

THE COURT:

1
the podium --

- in our motion on that.

3

MR. BUI:

4

THE COURT:

-- and let me read this case?

5

Give me a few minutes because I don t recall it.

6

one second.

7

MR. BUI: Um-

8

THE COURT: If you’ll give me one second?

9

MR. BUI:

Oh.

10

THE COURT: I want to read the case first.

11

MR. BUI:

12

THE COURT:

13

Go ahead. MR.

14

BUI: THE Good morning, Your Honor.

15

COURT: MR. Good morning.

16

BUI:

17
18

Hold on

Okay.
Okay. I’ve read it.

The Plaintiff pro se*is presenting

our argument in response to a plea in bar.
This case -- malicious prosecution -- was filed on October

19

29, 2019. Pursuant to Virginia Code 8.01-243 it - the action is allowed for

20

recovery of any type of personal injuries, including economic injuries.

21
22

And the case also - malicious prosecution is a relevant civil action and deemed to be accrued when -

23
14

7
1
2
3
4

- after the initial court case is terminated according to 8.01-249.
So this case is filed before a two-year limitation after the
November 6, 2017 prosecution that was nolle prosequied.
So the little - the legal claim here involved the speech and

5

records made with the police officer. And I have that record right here . It is

6 I

existing in the Police Department.

7

Those records were intended to be used in obtaining a

8

warrant of arrest or summons which resulted in the magistrate warrant.

9

That case that the plea in bar is referring to that was dismissed with

10 I

11

prejudice was called a civil libel defamation tort case.
It was an amended pleading. So in response to that the

12 |

dismissal is based on the statement made to the magistrate. And the ruling

13

was that the statement made to magistrate was absolute privilege.

14

So under Article Two - under Article Four defamation is an

15 I

actual legal claim by itself. And it has many different legal causes of that.

16 I

This current case that I filed does not contain any of those legal causes.

17

So it’s - it’s definitely a different legal

18
19
20
21
22
23
15

8

1

cause . So the dismissal order was ruled because -■ was ruled based on the

2

plea in bar.

V
And the plea in bar that was filed two years ago specifically

3

4

state in many paragraphs that its main purpose and its single plea was that

5

the statement was absolute privilege.
And it was granted so -- but it’s different from this legal

6
7'

here. And it - it - it doesn’t -the basis of this claim is malicious

8

prosecution. So there’s no other issue that was -- that were fully legally

9

litigated on that pleading.
The Plaintiff never did attempt to use the defamation as a

10
11

cause of action in any court jurisdiction or others.
In response to the plea in bar that said Rule 1:6 would bar

12

t

13

it, it — it wouldn’t because — because the claim — the legal claim are

14

different here and the merit of the case and the issues and the factual issues

15

of the case were never litigated or -■ or - in the pleading or in court

16

proceedings.

17
18

In this pleading of the complaint - malicious prosecution it does not mention or challenge the court order. It is an action of fraud.

19
20

21
22
23

16

9
1
2

And it’s legal ground on the laws of this state
including the interpreta -- interpre -- an interpretation of Rule 1:6(C).

3

4

Now, here the plea in bar -- the current plea

5

in bar also cite Rule - Lambert v. Javed. The ground --

6

the — it’s -- it was a wrongful death action where the parties are -- where

7

the parties are different through a joint filing of different cases.

8

9

And the second case was dismissed due to statute tolling.
And then the - and then the third case was bar because of that.

10

So it’s - it’s a little bit different here and it’s not identical

11

at all since — since actually the -- the cause of action was still the same in

12

all those cases that Lambert filed.

13

And all the cases that he filed Lambert alleged that the

14

defendant or defendants attempted or resulted the death of-- of Lambert -

15

a family member.

16
17
18
19

So in Kellogg v. Green the Supreme Court held

20

that “When an action is precluded by res judica (ph)[sic] is a question of

21

law that the Court review de novo.

22

Caperton v. AT. Massey Coal Co., (2013) —
“The parties saalfing to assert defense res judicata as a
17

10
1

bar must show by preponderance of evidence that the claim of issue should

2

be precluded by prior judgment.”

3

And in DAmbrosio v. Wolf Supreme Court of

4

Virginia held that “The evidence must be proven are each of these claim and

5

issue preclusion and judicial estoppel.”
In this case the court relies on the absolute privilege

6
7

statement for its prior judgment to dismiss the defamation case. The

8

plaintiffs factual position in this pleading did not come up in the dismissal

9

of 2017 case.

10
So I’m going to cite some opinion that is from

11
12

DAmbrosio -

13

THE COURT: Okay.

14

MR. BUI:

-- case where it said “The claim” —

15

“claim at issue -- what is claim and issue preclusion's by showing a

16

preponderance of evidence that the claim at issue should have been -

17

should be precluded by a prior judgment.”

18
19

And it’s also cite Bates v. Deaver (ph).

20

“When these cases issue are not asserted in the federal action and not

21

dismissed with prejudice it should not be a bar.

22
23

And also the legal claim — the legal opinion
18

ii
1

here is that ‘If there is an underlying different legal claim that can be

2

joined, it should be joined unless -unless a judicially recognized exception to

3

res judica

4

(ph) [sic] exists.”
“However,” it said on the four - on the second paragraph,

5
6

fourth line, it said, “However, if the underlying conduct transaction

7

occurrence produces multiple legal claims, not all of which can be asserted

8

at the time of the initial litigation, claim preclusion will not prohibit the

9

previously unmaintainable claims for” --“from being raised in subsequent

10

litigation.”
So - so if - so if he cite - if he cite that - if he - if he cite

11
12

that t-hi« — thin other case in the plea in bar that said — that said there was

13

a

14
15

contest of a will issue - no.

16

Honor? No, no.

17

What is it I wrote, Your

It’s - that’s fine.
So basically the argument - the argument here is that based

18

on — based on the opinion here, the Court — the Court said that if there is a

19

different legal claim that was not fully litigated, it can be brought up.

20

21

THE COURT:

22

MR. BUI:

23

THE COURT:

Okay.

So - and then also the issue I’m going to give you — I’m going
19

12
1

to give you two more minutes -

2

MR. BUI:

All right.

3

THE COURT:

4

MR. BUI:

- to finish up, all right?
The issue of preclusion here it

5

said, “The common factor issue between the same or related party must

6

have been actually litigated essential to a valid and final personal judgment

7

in the first action in order for -- in order for res judicata to be bar.”

8
9
10

THE COURT: Okay.
MR. BUI: And then the - the last -- the last issue that

11

needs to be proven for -- for the res jud —for the bar to be active is actually —

12

it said judicial estoppel.

13

It said that the - it said that “The fundamental requirement

14

for the application that’s sought - application that the parties sought to be

15

estoppel must be to adopt a position of fact that is inconsistent with a stand

16

taken in a prior litigation.”

17

So basically I think it’s - it’s saying -what it’s saying here is

18

that in order for it to be an estoppel the party that’s seeking an estop must

19

show the court that the factual position that was asserted in the first order

20

is the same as this one which the plea in bar

21
22
23
20

13
1

currently does not have.
THE COURT: All right. Thank you, Mr. Bui. I want you to

2

I’ve also read not only your pleading and

3

know that your time is up.

4

Defendant’s pleading, but I’ve also read the case that I was unfamiliar with

5

that you have

6

cited -- D’Ambrosio versus Wolf.

7
8

9

I’m ready to rule now. I’m going to sustain the plea in bar
and dismiss this case with prejudice pursuant to Rule 1:6.
My basis for doing -- and I’m going to direct you to prepare

10

an order that simply states that. I am denying the request for sanctions

11

and fees in this case.

12

My basis for it is the plain language of Rule 1:6 when read in

13

conjunction with Judge Bellows’ order dismissing the claim with prejudice

14

on April 16th, 2008.

15
16
17

And I conclude that that claim that was dismissed with
prejudice was a

or cause for action that arose out of the same conduct

in this case which is the incident in 2017 that is common to both complaints.
I do not find that the exceptions apply in

18
19

this case as this is a malicious prosecution claim.

20

21
22
23

I also do not find that the factual scenario
ic similar to that of D’Ambrosio versus Wolf because one
21

14
1

of the claims in D’Ambrosio versus Wolf did not exist at

2

the time of the ruling in the dismissed claim,

3

did exist. That is the basis for my ruling.

r'

Prepare the order,

4
5

This claim

Sign it “Seen and objected

to.” And you obviously have a right to note an appeal to

6

this decision as well.

7

MR. SMYTH:

Thank you very much.
Thank you. Your Honor.
*****

8

(Whereupon, at approximately 10:44 o'clock

9
10

a.m ., the hearing in the above-entitled matter was

11

concluded.)

12
13
C..

14
15
16
17
18
19
20
21
22
23
22

15
CERTIFICATE OF REPORTER
I, GAIL HIRTE ZEHNER, a Verbatim Reporter, do hereby
certify that an audio recording of the foregoing proceedings was provided to
me by the IT Department of the Fairfax County Circuit Court; that I
thereafter reduced the audio recording to typewriting; that to the best of my
ability the foregoing is a true record of said recording; that I am neither
counsel for, related to, nor employed by any of the parties to the action in
which these proceedings were held; and, further, that I am not a relative or
employee of any attorney or counsel employed by the parties hereto, nor
financially or otherwise interested in the outcome of the action.

GAIL HIRTE ZEHNER
Verbatim Reporter

23

IN THE CIRCUIT COURT OF FAIRFAX COUNTY
KHAIBUI,
Plaintiff,

)
)
)
)

CL2017-16518

v.
ABDUL
ALSHAER.

)
)
)
)

Defendant.

ORDER
THIS MATTER came to be heard on Defendant’s Plea
in Bar, and, IT APPEARING THAT the Plea in Bar is
well taken, it is hereby
ADJUDGED, ORDERED, and DECREED that the Plea in Bar is
sustained and this caseis dismissed with prejudice.
April 6, 2018

RANDY I. BELLOWS s/

SEEN AND object

SEEN AND AGREED:

si

si

Khai Bui, pro se

Sefton Smyth (VSB#68669)

27

24

File 2/23/2018
IN THE CIRCUIT COURT OF FAIRFAX COUNTY

) Case No.: 2017-16518

KHAIBUI,

)
)
)
)
)
)
)
)
)

Plaintiff,
v.
ABDUL ALSHAER,
Defendant.

PLEA IN BAR TO CTVTT, TIBET, DEFAMATION TORT (AMENDED
COMPLAINTS
COMES NOW the Defendant, by counsel, and for his Plea in Bar to
the Civil Libel Defamation Tort (which seems to be Plaintiff s ••
Amended Complaint"), states as follows:
1 Plaintiffs

Amended

Complaint

is

based

on

a

"handwritten statement" made on September 1, 2017,
accusing the Plaintiff of property damage.
2 Although the Plaintiff refers to the statement as a police
statement." it was actually a Criminal Complaint, attached as Exhibit I. The
handwritten Criminal Complaint is dated September 1, 2017, and contains
the sentences referenced in Plaintiffs Complaint. As indicated by the
signature, the Criminal Complaint was actually made before a magistrate, not
to the police.
25

3 The Criminal Complaint initiated case number GC17176768 in the Fairfax
County General District Court, charging the Plaintiff with damaging the
Defendant s vehicle.The magistrate issued a summons for the Plaintiff.
4 Defendant's statements made to the magistrate initiating the criminal case
are protected by the doctrine of judicial privilege and absolute immunity
words spokenor written in a judicial proceeding that are relevant and pertinent
to the matter under inquiry are absolutely privileged. Mamjield v. Bernabei, 284
Va. 116. 121 (2012)
5 The rule of judicial privilege is not limited just to trials, but includes all
proceedings of a judicial nature. Id. at 122. For instance, in Donohoe
Construction (,

Mount Vernon Associates. 235 Va. 531 (1988), the Court

found that filing a memorandum of mechanic's lien constituted a judicial
proceeding. Specifically, the Court found that because a claimant had to
appear and make an oath before a notary public, which is a judicial act, and
then a suit to enforce the lien must be brought, it fit the broad rule for a
judicial proceeding. Id. at 538.
6 In addition, judicial privilege extends outside the courtroom. Mansfield, supra
at 122.In Mansfield, a draft complaint circulated before fifing for settlement
purposes, wasfound to be protected by judicial privilege.
7 In Darnell v. Davis, 190 Va. 701 (1950), the defendant had
requested in writing that the justice of the peace dismiss an
arrest warrant which the defendant had originally sworn out.
26

The dismissal request still stated that the defendant had
committed trespass. The Court found that while the language
of the dismissal request could be the basis for a violation of the
insulting words statute, they were made as part of a judicial
proceeding, and. therefore, were privileged.
8 Finally, in Decker v. Watson. 2000 WL 33649965 (Va. Cir. Ct.
Nov. L 2000) (attached), the Court found that an affidavit made
to a magistrate for a search warrant, even when there were no
charges pending, constituted a judicial proceeding and was
afforded absolute immunity. The Court specifically found that
because the defendant testified under oath and under the
threat of perjury, that defendant made the alleged defamatory
statements in an attempt to secure a search warrant in a
criminal

investigation

pursuant

to

certain

statutory

provisions, and that the proceeding was
conducted before a magistrate, an officer of the Court vested
with certain judicial powers, it constituted a judicial
proceeding.
9 In the instant case. Mr. Alshaer submitted the Criminal
Complaint under the threat of penury. Mr. Alshaer made the
statements to initiate a criminal case, and such a case was
initiated. The statements were made before a magistrate,
27

who. pursuant to Decker, is a judicial official, and who had the
power to issue a summons against the Plaintiff (which in fact
was issued). Therefore, the submission of the Criminal
Complaint constitutes a judicial proceeding.
10 The damages which Plaintiff alleges all arise from the criminal charges. For
instance, in Paragraph c, he claims that he lost his job as a result of the
property destruction charges.1 Paragraphs d. e, g. and h and j refer to damages
suffered as a result of the criminal charges. The statements in the Criminal
Complaint regarding the damages to Mr. Alshaer's vehicle were the substance
of the criminal charge for vehicle damage, and that is the criminal charge
which Mr. Bui complains of. Therefore. Mr. Alshaer's statements in the
Criminal Complaint were relevant and pertinent to the matter under inquiry.
11 Since the statements in the Criminal Complaint were part of
a judicial proceeding, and they were relevant and pertinent to
that proceeding,

the statements are afforded absolute

immunity.
12 Even assuming that paragraph f is an allegation that the
statements were made maliciously, no action for defamation
can lie for statements which enjoy absolute immunity, no
matter how malicious they may be. Penick v. Ratcliffe, 149 Va.
618.632, 140 S.E. 664. 669 (Va. 1927)(citation omitted).
^However, Plaintiffs reference to his employer"s
28

policy regarding property destruction sounds like
property destruction that occurs on the job, not
property destruction generally.)

13 Plaintiff does not allege that the Defendant shared the written
statement with anyone not connected with the criminal
proceeding. Therefore, there is no claim that Defendant
published the statement outside of the judicial proceeding.
14 To the extent that the claim for emotional distress is a separate
cause of action as opposed to damages flowing from the alleged
defamation, the Amended Complaint fails to satisfy the pleading
requirements of Russo v. White, 241 Va. 23 (1991). In Russo, the
plaintiff alleged that she

was

nervous, could

not sleep,

experienced stress and its physical symptoms, and was unable
to concentrate at work. The Court, stating that liability only
arises --when the emotional distress is extreme, and only where
the distress inflicted is so severe that no reasonable person
could be expected to endure it: ruled that these symptoms were
not extreme enough to meet the pleading requirements for nontactile infliction of emotional distress.

Id. at 27-28.

instant case, the Plaintiff only alleges that

In the

he suffered

headaches and loss of sleep. Any financial loss he claims in his
29

Amended Complaint is due to criminal charges, not to any
emotional distress, and any alleged emotional distress does not
rise to the Russo requirements.
WHEREFORE. Defendant asks that this Court sustain his
Plea in Bar and that the case bedismissed with prejudice.
Respectfully submitted.
ABDUL ALSHAER
By counsel

s/

SEFTON SMYTH

30

KHAIBUI
1124 Duchess dr
Mclean, VA 22102
Telephone: 703-338-5898
Email: akhaibui@vahoo.com

VA: Fairfax County Circuit Court

Khai Bui,

Case No.: 2017-16518

Plaintiff,
vs.
abdul alshaer,
Defendant,
Civil libel defamation tort

I, Khai Bui, pro-se herein charge that defendant commit libel statement. The
statement was made on September 1, 2017 with defendant’s handwriting. The
statement has intended to put plaintiff in trouble with the law. It did and it did
further cause damages to plaintiffs reputation, jobs, contracts, financial status,
change of jobs, and change of work schedule.
a. Mr Bui knows defendant through usage of a rental house. Mr Bui and
defendant were at odds over keeping the shared bathroom clean. Defendant
was kicked out the shared bathroom for not keeping it clean. About the same
time, he files a false police statement. Beginning of his statement he wrote
“On Aug 25th, I witnessed Khai scratch my vehicle through my front window
31

of the house at or around 3pm- 5pm.” Defendant made an untruthful
statement to the police and a libel statement was committed against the
plaintiff
b. Mr Bui’s name was re written several more times in the statement. Where
his name was associated and controlled in the statement’s sentences; the
sentences said: “On the 24th, prior to this incident, I found cake on my car. On
the 26th of Aug, the following day, I was taking a shower while Khai had
exited his room and stood by the bathroom door and waited my leaving the
bathroom in aggressive ....” Defendant willfully use plaintiffs name in the
sentence and accused plaintiff of improper domestic behavior. Defendant has
tried to ruined plaintiffs name with people that are living in this house.
I.

Financial damages (c)

c. Plaintiff annual income is 20 - 40 thousands / year contractually for last 2
years. Before the last 2 years plaintiff has worked with many different
companies with an average of $20-$45 per hour. Resulting from these
allegations, plaintiff has no longer work with TL transportation logistics. TL
transportation logistics hire Mr Bui for contracts since 2016. Therefore, Mr
Bui not only loss his contracts but everything that he has built within the
organizations. Mr Bui does not accused defendant of trying to get his job or
jealous of his earnings. He just knows that as a result of the property
destruction charges, his employers were reluctantly letting him out. TL
transportation logistics’ policies generally do not compensate for properties
destruction. Properties destruction were tier infractions that will result in
termination
II.

Emotional distress and credit distress (d - e)

32

f

r-

d. Plaintiff was considered for employment with several car dealership.. His
• ' :.ijTV

Kl 'H-

V

.

‘ "ill W

. -■.Vr*'"

H

>'

•••- •

•

-

employment was pending background check. Criminal charges were
' iv £?«! .
! i ■vi
u
. >i... .. u:
. •*.<
appearing on these reports and were securities issues for employment.
Ultimately, after looking at the background check potential employer were
not able to acquire his service.
fit-:*'

" •

e. Plaintiff could have been jailed and convicted of criminal charges as resulted
from defendant’s pages of notes. Plaintiff was suddenly losing income of
$2000 / month. Plaintiff was becoming insolvent and could not pay his bills on
•

*

*

«

\

t

.

'\

. .

* t

4

,

.‘Vi. v**1 ’*

'w

time. As a result plaintiff is emotionally distress over loss of jobs and
contracts since September 2017.
«

S

*

f. Malice occurs when the person making the statement knew the statement
was not true at the time he made it or had reckless disregard for whether it

•5

was true or not.
g. Plaintiff suffers headache and insomnia after facing criminal charges from
defendant’s untruthful written words.
h. Plaintiff change of work and change of work schedule because of defendant’s
charges. Loss of earnings and incurred charges to look for jobs are a part of
• 1

this claim
f\\t

*>

\

Wherefore, plaintiff’s claim that defendant’s statement were false. Defendant’s
statement causes financial damages because it brought on a criminal charge. Then
these charges .were appearing on background check for employment. Defendant’s
false statement causes loss of jobs and contracts. Plaintiffs background check for
.. employment rejected because of court case. Plaintiff claim that there are enough to
■ prove that defendant committed libel and there were injuries to plaintiff s emotions
. 33

*
:/!;

j

2

the lawsuit in this court under
I.
II.

Malicious intent
Defendant made the report

III.

Without probable cause, AND

IV.

Terminated or nolle prosequi

V.

File false police report

2-1A Plaintiff complaints that defendant told fraud and false information to the
police officer, McEUiott. That information and subsequent events causes plaintiff
to lose his job at transportation logistic 11c and amazon.com. These subsequent
events public records had an adverse condition on his pre-employment
qualification at Koon’s tysons comer. Plaintiff was seeking a job at Koon’s auto
dealership. His employer ran a background check. Background check results had
immediate adverse condition that prevent employer going further in the
employment process. The pending court case was on the report.
2-lB Plaintiff was using a work address 6479 Gainer Street Annandale VA 22003.
This address is where plaintiff lives April 2017 - April 2018. Plaintiff On two
occasions told defendant to clean the bathroom but defendant did not clean.
Plaintiff was feeling sick so he sends a text to Haley, landlord, so she can fix the
situation and clean the bathroom. Haley told plaintiff that somebodies in the
house also stole plaintiffs packages and did not return until Haley raise her
concerns.
■ j
2-1C Fees of approximately twenty dollars per tenant per month were asked by
landlord to fix the cleaning situation. Defendant discontinued paying the fees and
then he discontinued self-cleaning the bathi’oom.
In committing these civil wrongs, defendant was upset because he had a verbal
2-lD
argument with plaintiff in front of the house. The next couple days, he filed a false
36

3

police report claiming that plaintiff was the person that destroyed his car on-----several different occasions and different days. The criminal case was prosecuted
in court November 2017. The case was nolle prosequi because of no probable
evidence. Defendant also claims that he saw the person who did it on those
occasions. The false police report leads to a charge with property destruction. The
charges were nolle prosequi at the end.
2-IE Defendant went to the police officer, McElliott and report that he saw Mr. Khai
Bui destroyed his car on August 24th, August 25th and August 26th. After the
police investigated, defendant went to the Fairfax County magistrate court . Mr.
Khai Bui was working for TL LLC on those days from 3pm - 9pm and was nowhere
near defendant's car.
2-1F VA code 18.2-461 Falsely summoning or giving false police reports to law
enforcement officials is an offense that is punishable by the Commonwealth.
Furthermore, a lie to an officer can be dangerous especially if it was induced from
a negligence and malicious motives.
2-1G Defendant is not trustworthy in state of Georgia. Defendant was found guilty
on a writ of possession, case 09-m-22947. Defendant was avoiding service of
process on a small claim, case 06-m-27040. These are charges of unpaid rent and
unpaid goods and services. These are also crimes of frauds and dishonesties when
A^A^t rented in Georgia. [ATTACH 6 pages: Gwinnett County Magistrate
Court]
2-1H Defendant motive was to file a false report to put plaintiff in false light and
assign a peace officer or police officer to arrest plaintiff. This motive is fueled with
previous arguments about cleaning a bathroom and last argument was in front of
the house.
Defendant fails to meet the lease requirements of keeping a clean space and
2-11
37

4

bathroom. Furthermore, he uses his failures to adhere to rental rules as
motivation in a criminal attempt to use plaintiffs name on the false police report.
Even though, defendant did not have a covenant agreement with plaintiff but they
were tenants at the same location. Therefore, defendant can be liable for attacking
plaintiff personal space, personal properties, and including plaintiffs name
2-1J Plaintiffs bedroom was at least accessed during a water leaking from the roof.
Plaintiff bank account, computer, documents, and other personal things were
exposed. Plaintiff lost some clothing and his online packages were stolen
2-IK Defendant did not have probable cause when he initiates a police report.
Defendant did not observe incidents any incidents he reported. Case was
dismissed in plaintiffs favor. Defendant asked for money to fix his car
2-1L Defendant brought guy friends to the house to tries intimidate plaintiff after
the criminal court case. They would block the house stairways at the same time
as plaintiffs leaving
2-lM Defendant wrote some quotes in the false police report. These are offensive
words within quotations to make plaintiff looks worse. The use of plaintiffs name
was not noticed and unauthorized by plaintiff
2-1N Defendant did not see plaintiff did anything to his car. Defendant’s statement
was surreal and false while he uses plaintiffs name without permission to the
police
2-10 File false police report - defendant committed a crime with intent to harm and
without probable cause
2-IP Fields v Sprint Corporation, in this case, the Sprint employee thought he saw
a theft and report to the police but it wasn't a theft. The court finds that report
to the police to initiate a crime is early in the judicial process and therefore should
only afford qualified privilege and the court also find that the police report in
38

5

Fields v Sprint Corporation was made with malice. To the extent of court order,
any order made by the court in judicial settings are judgment of the court and is
constitutional. It may or may be looked upon as decision of a case. It may definitely
he counted as a judgment for a specific item to be complete by a party in a case.
2-1Q Similarly, to Fields v Sprint Corporation case, defendant report to the Mason
district police about Mr. Khai Bui destroying his car was too early in the process
to be absolute privilege. It was a He so it cannot afford qualified privilege, and it
was made with negligence and malice.
2-lR Plaintiff has suffered loss from the defendant’s false report as lost job at TL 11c,
unable to obtain a job at Koon’s, damaging information on background check, and
immediate and future mis-interpretation of his name.
.i •

Plaintiffs rights to life, liberty, or property was deprived when defendant falsely
accused plaintiff of destruction of his car. That false accusation exposed plaintiff to
nolle prosequi case, bad background check and lead plaintiff to lost contract, lost job
opportunities, loss of privacies, and “equal protection” of the laws.
Plaintiff is entitled to relief because defendant filed false report to the police and
followed up with officer McElliott in the investigation without noticing plaintiff.
Plaintiff was charged with properties destruction in circuit court of Fairfax. Plaintiff
appear in court on November 8, 2017 to hear the case. Defendant offered no
explanations but did demand some money in circuit court on trial date. The court
nolle prosequi the case. Plaintiff filed defamation suit in circuit court but that case
was dismissed. Plaintiff allege in this complaint that defendant had filed false reports.
It shows that defendant wrote these reports on or about September 1, 2017. The
39

6
charges brought against plaintiff cause him to lose his job and unable to obtain job.

Consequently, plaintiff is seeking remedies against a torts feasors and is within his
state statute of limitation, § 8.01-243. Personal action for injury to person or property
generally; extension in actions for malpractice against health care provider or state
law.
2-IS Plaintiff seeks relief for the harm caused by malicious prosecution. Plaintiff
seeks damages of economic loss as an employment loss and loss of employment
opportunity and immediate and future mis-interpretation of plaintiff name due to
the violation of plaintiff civil rights. Plaintiff seeks compensatory and general
damages loss even though plaintiff now has a good job. Compensatory damages
are employment loss at distribution center where plaintiff was on two-year term
contractor at any given time at that time. Additional, compensatory damages are
employment opportunity loss at car dealership where plaintiff opportunity was
denied by an adverse background check on October 27, 2017. General punitive
damages seek is an amount within state limits for willful, wanton, and reckless
negligence. Punitive damages are an amount equal three hundred forty-two
thousand. This amount of punitive is ninety percent of compensatory damages
claims times two due to the willful, wanton, and reckless negligence. Plaintiff was
in the fifty percent portion of the contract at Amazon, therefore he seeks
compensatory damages for two terms of contract base on his salary, amount of one
hundred forty thousand. Plaintiff seeks salary damages for missed re-employment
opportunity at Koons dealership, amount of fifty-four thousand.
40

7

Wherefore, it is evident that plaintiff constitutional rights given to him by the
constitution could be infringe upon by another. When a crime occurs, a civil lawsuit
is pursued for purposes of recovering damages. Three lawsuits were filed and
dismissed on grounds of absolute privilege, lack of federal subject matter jurisdiction,
and no cognizable cause of action. This lawsuit alleges in details the wrongs that
previous lawsuits were never litigated or could have been litigated. This lawsuit is
different and it asks for relief of damages from results of wanton reckless negligence
and its complaint of malicious prosecution seeks compensatory and punitive.

s/ KHAI BUI 10-29-2019

X
KHAI BUI

KHAI BUI
1124 Duchess dr
Mclean, VA 22102
Telephone: 703-338-5898
Email: akhaibui@vahoo.com
41

{

8

Certificate of Service
I, Khai Bui pro-se, confirm a true copy of complaint-malicious prosecution was sheriff
serve request on October 29, 2019:

s/ KHAI BUI 10-29-2019

KHAI BUI
1124 Duchess dr
Mclean, VA 22102
r

Telephone: 703-338-5898
Email: akhaihui@vahoo.com

42

1

KHAIBUI
1124 Duchess dr
Mclean,VA 22102
Telephone: 703-338-5898
Email: akhaibui@vahoo.com

IN THE CIRCUIT COURT OF FAIRFAX COUNTY
Khai Bui

Case Number: 2019-14766

1124 Duchess dr
McleanVA 22102
Plaintiff,
v.
abdul alshaer
6479 Gainer st
Annandale VA 22003
Defendant

Response to plea in bar

Comes now, Khai Bui pro se response to the plea in bar. A lawsuit was filed for
malicious prosecution on October 29, 2019. The title of the lawsuit is ComplaintMalicious Prosecution. This cause of action is merit if conditions of facts previous
43

2

raised by defendant was fraud or false. Defendant filed plea in bar alleged plaintiff
lawsuit is bar by res judicata citing Rule 1:6( a ), Lambert v Javed, Funny Guy, LLC
v Lecego, and an order dismissed defamation case with prejudiced.

Defamation case was filed in November 22, 2017 and disposition:
1) Demurer was sustained, plaintiff filed amended complaint (Exhibit a)
2) Civil libel defamation tort filed February 12, 2018 ( Exhibit b )
3) Plea in bar was filed February 23, 2018 (Exhibit c)
4) Court rule that allege written statement in the defamation cause was
absolute privilege. Case was dismissed with prejudice (Exhibit d)
Defamation action in state of Virginia is under code 8.01-45 through 8.01-49.1. It does
not refer to malicious prosecution.

Pursuant to Rule 1:6( c ) “Exceptions. The provisions of this Rule shall not bar a
party or a party's insurer from prosecuting separate personal injury and property
damage suits arising out of the same conduct, transaction or occurrence, and shall
not bar a party who has pursued mechanic's lien remedies pursuant to Virginia Code
§ 43-1 et seq. from prosecuting a subsequent claim against the same or different
defendants for relief not recovered in the prior mechanic's lien proceedings, to the
extent heretofore permitted by law.” His cause of action is different and he claims
personal injuries under VA code 8.01-243. In this case rule 1:6( a ) does not applies
because merit of this case is initial report to the police was fraudulent.

On November 8, 2017 prosecution case against plaintiff was nolle prosequi.
Defendant was the person that made the false report to the police. Pursuant to state
civil remedies and laws, defendant could be sued for each false oral or different types
44

3

of statements made by himself if those statements were not produced at the same
time. Defendant alleged two cases in support of his plea in bar.

Plaintiffs cause of action is malicious prosecution. It is different than defamation.
Lambert v Javed cite opinions concerning final disposition of a case. It did not prove
that any of the cases in questions had been fully litigated until disposition.
Defamation was dismissed because its cause was absolute privilege. Federal case was
dismissed because of subject matter jurisdiction and the other was not served.

Plaintiffs cause of action and claims are under personal matters and personal
injuries. Funny Guy LLC v Lecego is regarding contract dispute. Surely, in contract
disputes legal claims are disclosed between the parties before a lawsuit. In personal
injuries case s, parties do not know details of the claims until discoveries. Plaintiff did
not receive correspondence from the police about the incident until November 2018.
Plaintiff could not have used that as a cause of action in the defamation case.

Federal case filed August 24, 2018 and dismissed without prejudiced citing the court
does not have subject matter jurisdiction. The case was never looked at for its merit.
Federal case filed August 2019 was never served. It was dismissed for unrecognizable
action. Federal jurisdiction requires residents to be non-citizens of same state.
Federal rule 12 ( b ) requires defense motion to assert limited grounds and res
judicata was not asserted in the federal case 1-.18-CV-1061.

Wherefore, plaintiff asks for eight hundred dollars in legal fees to defend plea in bar
(Exhibit e) and asks this court to dismiss the plea.
In this circuit court, it is before a malicious prosecution case. It is filed under rule
45

4

1:6( c ) and is a personal injuries recoveries claims. Under VA code 8.01-243
recoverable action for personal injuries case was filed before two years statue of
limitation. This case is not in violation of Virginia laws and can not be a claim for
attorney fees. Under 8.01-271.1, meritless or fraudulent claims may be considered by
the court for reimbursement of attorney fees.
Defendant has not proven this case was decided on the merits or they are identical.
Plaintiff ask this court to believe that there was a false report made to the police and
the prosecution ended in his favor.

1-23-2020

s/ KHAI BUI

X
KHAI BUI

KHAI BUI
1124 Duchess dr
Mclean, VA 22102
Telephone: 703-338-5898
Email: akhaibui@vahoo.com

46

5
KHAIBUI
1124 Duchess dr
Mclean, VA 22102
Telephone: 703-338-5898
Email: akhaibui@vahoo .com

Certificate of Service
I Khai Bui pro-se, confirm a true copy of response to plea in bar was mailed on
January 23, 2020 to opposing counsel:

Date 1-23-2020

Sefton Smyth
32 W. Baltimore St.
PO Box 944
Funktown, MD 21734

47

s/ KHAI BUI

File 11/21/2019

IN THE CIRCUIT COURT OF FAIRFAX COUNTY

) Case No.: 2019-14766

KHAIBUI
Plaintiff,
v.
ABDUL ALSHAER,
Defendant.

)
)
)
)
)
)
)
)
)

PLEA IN BAR
Defendant, by counsel, for his Plea in Bar, states as follows:1

BACKGROUND
Plaintiff and Defendant used to be roommates. On September 6,
2017, Mr. Alshaer fileda criminal charge in the General District Court
against Mr. Bui for damaging his car on or about
August 25, 2017, case number GC1 7176768 (a copy of the criminal
complaint and criminal summons is attached as Exhibit 1).
Ultimately, a nolle prosequi was entered on November 8, 2017
On November 22, 2017, Mr. Bui filed his first suit against Mr. Alshaer

48

criminal charge* entitled "Complaint Credit Worthiness and
Emotional Distress," case number CL 2017-16518 (the "First Fairfax
Case"), a copy of which is attached as Exhibit 2. Mr. Alshaer demurer,
and on February 2, 2018, Judge Bellows granted Mr. Alshaer leave to
amend, warning him in court that if his amended complaint failed to
state a claim, then his case would likely be dismissed (the order granting
leave to amend is attached as Exhibit 3). On February 12, Mr. Bui filed
his amended complaint, entitled "Civil libel defamation tort," attached
as Exhibit 4. Mr.
1 Defendant actually no longer lives at the address where
the Complaint was served, and he learned about the case
from an old roommate who still lives at that address.
Defendant waives any arguments regarding service of
process.
Alshaer filed a plea in bar (attached as Exhibit 5), since the alleged
defamatory statements camefrom the criminal complaint, which was
protected by judicial privilege. On April 6, 2018, JudgeBellows granted the
plea in bar, and dismissed the case with prejudice (see Exhibit 6). Mr. Bui
did not appeal the dismissal.
On August 24, 2018, Mr. Bui sued Mr. Alshaer in the United States
District Court for theEastern District of Virginia, Case Number l:18-cv2

49

1061 (the "Federal Case"). In the Federal Case, Mr. Bui sued Mr. Alshaer
for "Breach of duty of care;" "Malicious prosecution with malice;" "Invasion
of privacies under statute of false light;" "Illegal use of a person name with
intent to harm;" and "File false police report" (the federal complaint is
attached as Exhibit 7).
Once again, his suit was based on the criminal charge, which he
attached as an exhibit to his complaint. Since the Federal Case alleged
only state court claims, and the parties were at the time both residents of
Virginia, Mr. Alshaer moved to dismiss the case for lack of subject matter
.....2 On October 29, 2018, Judge Hilton granted the motion and dismissed
the Federal Case without prejudice (Exhibit 8).
Exactly one year later, Plaintiff filed the instant case for malicious
prosecution from the incident, claiming that Mr. Alshaer lied to the police
officers when he reported the charge. Mr. Bui even references his previous
civil suits, and states that "Three lawsuits were filed and dismissed on
grounds of absolute privilege, lack of federal subject matter jurisdiction,
and no cognizable cause of action.^ Mr. Bui's claims are barred by res
judicata, and Mr. Alshaer seeks sanctions to prohibit further legal
harassment.
ARGUMENT

2 Since federal practice is to resolve jurisdictional issues prior to
rulings on The merits, Defendant did not raise the resjudicata issue in
3 50

the Federal Case.

3 Counsel is only aware of two suits, but the third case which Plaintiff
references may have been the first complaint in the First Fairfax Case.

As stated above, the First Fairfax Case was dismissed with
prejudice. "As a general proposition a judgment of dismissal which
expressly provides that it is' with prejudice’ operatesas resjudicata
and is as conclusive of the rights of the parties as if the suit gad been
prosecuted to a final disposition adverse to the plaintiff." Lambert v.
Javed, 273 Va. 307, 310, 641 S.E.2d 109,110 (2007)(citation omitted).
"Virginia law has historically recognized that a litigant must unite
eve ry joinable claim that he has against a particular defendant in

one

proceeding or risk thepreclusion of his other claims. 'Every litigant
should have opportunity to present whatever grievance he may have
to a court of competent jurisdiction; but having enjoyed that
opportunityand having failed to avail himself of it, he must accept the
consequences. Funny Guy, LLC v.Lecego, LLC, 293 Va. 135, 146-47,
795 S.E.2d 887, 892 (2017)(citation omitted). "Thus, the effect of a
final decree is not only to conclude the parties as to every question
actually raised and decided, but as to every claim which properly
belonged to the subject of litigation and which the parties, by the
exercise of reasonable diligence, might have raised at the time. "' Id. at
4&1

147, 892-93.
In addition, Virginia Supreme Court Rule l:6(a) states, "A party
whose claim for relief arising from identified conduct, a transaction,
or an occurrence, is decided on the merits by a final judgment, shall
be forever barred from prosecuting any second or subsequent civil
action against the same opposing party or parties on any claim or
cause of action that arises from that same conduct, transaction or
occurrence, whether or not the legal theory or rights asserted in the
second or subsequent action were raised in the prior lawsuit, and
regardless of the legal elementsor the evidence upon which any claims
in the prior proceeding depended, or the particular
remedies sought."
The claims which Mr. Bui raises in the instant case are all
related to the criminal charge from 2017, and Mr. Bui refers to that
charge in the instant complaint. The First Fairfax Case was also
based on that criminal charge, and states as much in this
complaint. Mr. Bui's complaint in this matter even indicates that
this is the third or fourth suit he has filed in connection with the
charge. When Mr. Bui filed his amended complaint in the First Fairfax
Case, he could have added his counts for malicious prosecution, or for
defamation based on the police report (as opposed to the criminal
complaint). He did not do so. Instead, he first raised malicious
5 52

prosecution four months later when he filed the^ Federal Case.
The criminal complaint was part of the criminal charge, and once
the First Fairfax Case concerning the criminal complaint was
dismissed with prejudice, it extinguished every civil claim that Mr.
Bui had against Mr. Alshaer related to the criminal charge.
In addition, to the extent that Mr. Bui may be claiming defamation
based on thestatements made to police, such claims are barred by the one year
statute of limitations for defamation actions contained in §8.01-247.1 . The
statements were made in August, 2017. This suit was filed exactly one year
after the Federal Case had been dismissed. The Federal case was filed
approximately four months after the First Fairfax Case was dismissed, and
the First Fairfax Case was filed two weeks after the criminal case was
dismissed. Even allowing for tolling while suits were pending, the one year
period to file suit for defamation is past.
REQUEST FOR SANCTIONS
By Mr. Bui' s own statement, this is the third or fourth suit
that he has filed against Mr. Alshaer regarding the criminal
charge. Mr. Bui is clearly following the old adage of "if at first you
don't succeed, try, try again," but, at this stage, all of his claims
are barred. Due to this harassment, Mr. Alshaer requests
sanctions against Mr. Bui in the form of attorney fees for filing
this suit in violation of Va. Code § 8.01-271.1 —
6 53

CONCLUSION
Wherefore, Defendant asks this Court dismiss the current
case without prejudice and award sanctions against the Plaintiff.

Respectfully submitted,
ABDUL ALSHAER
By counsel
s/

SEFTON SMYTH

54
7

County of Fairfax, Virginia
To protect and enrich the quality of life for the people,
neighborhoods, and diverse communities of Fairfax County

November 16, 2018
Khai Bui
1124 Duchess Dr.
McLean, VA 22102
Re:

2017-

2380183
v

Our Re: 18-FOIA
768
Dear Khai Bui:
This correspondence is in response to your Virginia Freedom of
Information Act (VFOIA) request and serves to confirm the existence
r

of an incident report on file withthe Fairfax County Police
Department. The complete police report and associated materials are
deemed to be criminal investigation information or material.
Therefore, the exemption from disclosure under Section 2.23706(A)(2)(a) of the Code of Virginia will be exercised. The following
criminal incident information is provided pursuant to Va. Code Ann. §

55

2.2-3706(A)(l)(a):

Case Number

2017-2380183

Date of Report

08/26/2017

Date of Event

08/26/2017

Investigating Officer

PFC K. McElligott

Reported Event

Injure/Tamper Vehicle Etc.

General Location

6000 Block Gainer Street

General Injuries

N/A

General Property Reported N/A
Stolen
Your

provided $10.00 payment has been returned and is enclosed . If we

can be

offurther assistance, please do not hesitate to contact me at (703)

246-4561 or FCPDFOIA^h^*«»™tv-gQ^
Sincerely,
s/ Michael W. Cole
Michael W. Cole, Compliance Manager
f

Media Relations Bureau
MWC/ekw
Vyxyyy.fai-rfaXOOUntV.gov

56

UA

~7-B“2n2.l

Khai Bui
1124 Duchess dr
Mclean, VA 22102
Email: akhaibui@vahoo.com
Number: 571-389-0693

57

